TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                  Fiscal Year 2013
                          Statutory Review of Compliance
                         With Lien Due Process Procedures



                                           July 30, 2013

                              Reference Number: 2013-30-072




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


FISCAL YEAR 2013 STATUTORY                              representatives of the taxpayers’ rights related
REVIEW OF COMPLIANCE WITH                               to liens.
LIEN DUE PROCESS PROCEDURES                             In addition, the IRS is not always following
                                                        internal procedures for undelivered lien notices.
                                                        IRS procedures require address verification and,
Highlights                                              if applicable, resolution of undelivered lien
                                                        notices within 14 calendar days of receipt.
Final Report issued on July 30, 2013                    TIGTA selected a judgmental sample of
                                                        248 undelivered lien notices returned to the
Highlights of Reference Number: 2013-30-072             Cincinnati (113 lien notices) and Fresno
to the Internal Revenue Service Commissioners           (135 lien notices) Campuses in October 2012.
for the Small Business/Self-Employed and the            For 102 of the 248 undelivered lien notices,
Wage and Investment Divisions.                          employees did not perform the required
                                                        research within 14 calendar days of receipt of
IMPACT ON TAXPAYERS                                     the returned lien notice.
After filing Notices of Federal Tax Liens, the
                                                        WHAT TIGTA RECOMMENDED
IRS must notify the affected taxpayers in
writing, at their last known address, within five       TIGTA recommended that the IRS revise the
business days of the lien filings. However, the         Notice of Federal Tax Lien request form to
IRS did not always follow its own internal              include a checkbox to indicate that a power of
guidelines for notifying taxpayer representatives       attorney is required to be sent a copy of the lien
of the filing of a Notice of Federal Tax Lien.          notice and establish procedures to require the
This can cause additional burden to those               lien unit to verify all lien requests in which the
taxpayers who rely on a representative to               checkbox is blank. TIGTA also recommended
handle tax matters.                                     that the IRS establish controls to ensure that the
                                                        Automated Collection System Support function
WHY TIGTA DID THE AUDIT                                 received date for undelivered lien notices is
TIGTA is required by law to determine annually          properly documented and that undelivered lien
whether lien notices issued by the IRS comply           notices are researched timely.
with the legal guidelines in Internal Revenue           The IRS agreed with both of TIGTA’s
Code Section 6320.                                      recommendations. The IRS plans to revise the
WHAT TIGTA FOUND                                        Notice of Federal Tax Lien request form and
                                                        modify procedures for the Centralized Lien
TIGTA reviewed a statistically valid sample of          Operation’s processing of the form to include
133 Notices of Federal Tax Liens filed for the          verification of missing power of attorney
12-month period ending June 30, 2012, and               information. The IRS also plans to issue a
determined that the IRS mailed ******1**********        Service-wide Electronic Research Program Alert
***********1************** as required by Internal       and update its procedures to require that the
Revenue Code Section 6320.                              Automated Collection System Support function
                                                        received date be documented. The Automated
IRS regulations require that taxpayer
                                                        Collection System Support function will also
representatives be given copies of all
                                                        begin using the Integrated Data Retrieval
correspondence issued to the taxpayer.
                                                        System feature for systemic generation of the
However, for five of the 47 cases in the
                                                        Transaction Code 971 action code on
statistically valid sample in which the taxpayer
                                                        undelivered liens.
had an authorized representative, the IRS did
not notify the taxpayers’ representatives of the
Notice of Federal Tax Lien filings. TIGTA
estimated that 27,389 taxpayers may have been
adversely affected because the IRS did not
follow requirements to notify the taxpayers’
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 30, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2013 Statutory Review of Compliance
                             With Lien Due Process Procedures (Audit # 201330001)

 This report presents the results of our review to determine whether liens issued by the Internal
 Revenue Service (IRS) comply with legal requirements set forth in the Internal Revenue Code
 (I.R.C.) Section (§) 6320 (a) and related guidance in the Federal Tax Liens Handbook. The
 Treasury Inspector General for Tax Administration is required by law to determine annually
 whether lien notices issued by the IRS comply with the legal guidelines in I.R.C. § 6320. The
 audit is included in our Fiscal Year 2013 Annual Audit Plan and addresses the major
 management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Augusta R. Cook, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                                        Fiscal Year 2013 Statutory Review
                                  of Compliance With Lien Due Process Procedures




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Most Lien Notices Were Mailed Timely ...................................................... Page 4
          The Internal Revenue Service Did Not Comply With
          Procedures for Notifying Taxpayer Representatives .................................... Page 4
                    Recommendation 1:........................................................ Page 7

          Opportunities Exist to More Effectively Work
          Undelivered Lien Notices ............................................................................. Page 7
                    Recommendation 2:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measure ................................................................ Page 18
          Appendix V – Synopsis of the Internal Revenue Service
          Collection and Notice of Federal Tax Lien Filing Processes ...................... Page 19
          Appendix VI – Internal Revenue Service Computer Systems
          Used in the Filing of Notices of Federal Tax Liens ...................................... Page 21
          Appendix VII – Statutory Lien Reports Issued During
          Fiscal Years 2007 Through 2012 ................................................................. Page 22
          Appendix VIII – Management’s Response to the Draft Report ................... Page 23
               Fiscal Year 2013 Statutory Review
         of Compliance With Lien Due Process Procedures




                  Abbreviations

ACS         Automated Collection System
ALS         Automated Lien System
AMS         Accounts Management System
CAF         Centralized Authorization File
ICS         Integrated Collection System
IDRS        Integrated Data Retrieval System
I.R.C.      Internal Revenue Code
IRS         Internal Revenue Service
NFTL        Notice of Federal Tax Lien

SB/SE       Small Business/Self-Employed

TIGTA       Treasury Inspector General for Tax Administration
                                    Fiscal Year 2013 Statutory Review
                              of Compliance With Lien Due Process Procedures




                                             Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face-to-face with taxpayers. The IRS has
the authority to attach a claim,1 commonly referred to as a Federal tax lien, to the taxpayer’s
assets for the amount of unpaid tax when the taxpayer neglects or refuses to pay. The IRS files a
Form 668(Y)(c), Notice of Federal Tax Lien (NFTL),2 in appropriate local government offices
and interested parties are notified that a lien exists.
Since January 19, 1999, Internal Revenue Code (I.R.C.) Section (§) 63203 has required the IRS
to notify taxpayers, in writing, within five business days of the filing of a NFTL. The IRS is
required to notify taxpayers the first time a NFTL is
filed for each tax period. The lien notice4 is used for
this purpose and advises taxpayers that they have               The IRS is required to notify
30 calendar days, after that five-day period, to request           taxpayers the first time
                                                                        a NFTL is filed.
a hearing with the IRS Appeals office. The lien
notice indicates the date on which this 30-day period
expires.
The law also requires that the lien notice explain, in simple terms, the amount of unpaid tax,
administrative appeals available to the taxpayer, and provisions of the law and procedures
relating to the release of liens on property. The lien notice must be given in person, left at the
taxpayer’s home or business, or sent by certified or registered mail to the taxpayer’s last known
address.5
Most lien notices are mailed to taxpayers by certified or registered mail rather than being
delivered in person. The IRS Automated Lien System (ALS) generates a certified mail list that
identifies each notice that is to be mailed. The notices and a copy of the certified mail list are
delivered to the U.S. Postal Service. A U.S. Postal Service employee ensures that all notices are
accounted for, date stamps the list, and returns a copy to the IRS. The stamped certified mail list
is the only documentation the IRS has that certifies the date on which the notices were mailed. A
synopsis of the IRS collection and lien filing processes is included in Appendix V.



1
  I.R.C. § 6321.
2
  IRS Form 668(Y)(c), Notice of Federal Tax Lien (Oct. 1999).
3
  I.R.C. § 6320.
4
  IRS Letter 3172, Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Mar. 2009).
5
  The last known address is the one shown on the most recently filed and properly processed tax return, unless the
IRS received notification of a different address.
                                                                                                            Page 1
                                       Fiscal Year 2013 Statutory Review
                                 of Compliance With Lien Due Process Procedures



Depending on employee access and case status, NFTL requests can be generated using one of
three IRS systems: 1) the Integrated Collection System (ICS), 2) the Automated Collection
System (ACS), or 3) directly input into the ALS. Appendix VI provides a description of IRS
computer systems used in the issuing of the NFTLs.
In Fiscal Year 2011, the IRS implemented the Fresh Start initiative to provide aid to struggling
taxpayers. This initiative increased the threshold when NFTL filing determinations are generally
made from $5,000 to $10,000. Figure 1 shows the number of NFTLs filed has decreased from
1,042,230 to 707,768 (32 percent) between Fiscal Year 2011 and 2012.
                Figure 1: Number of NFTLs Filed From Fiscal Years 2008–2012




           Source: IRS Data Book published in Fiscal Years 2008 through 2012.

The Treasury Inspector General for Tax Administration (TIGTA) is required to determine
annually whether the IRS complied with the law regarding the notification of affected taxpayers
and their representatives when filing NFTLs.6 This is our fifteenth annual audit to determine
whether the IRS complied with the legal requirements of I.R.C. § 6320 and its own related
internal guidelines for issuing lien notices.7 In the last five years, we reported twice that the IRS
was in full compliance with the law of timely notifying taxpayers, but we reported five times that
the IRS had not achieved compliance with internal guidelines involving power of attorney
notifications and resolving undelivered lien notices.


6
    I.R.C. § 7803(d)(1)(A)(iii).
7
    See Appendix VII for a list of the prior six reports.
                                                                                              Page 2
                                Fiscal Year 2013 Statutory Review
                          of Compliance With Lien Due Process Procedures



Figure 2 shows the percentages of potential violations of taxpayer rights we identified during our
prior five annual audits.
                    Figure 2: Potential Violations of Taxpayer Rights
                              Based on Timely Notification




         Source: TIGTA Statutory Liens Reports issued during Fiscal Years 2008–2012.

This review was performed at the Small Business/Self-Employed (SB/SE) Division Office of
Collection Policy in New Carrollton, Maryland, the Centralized Case Processing – Lien Unit and
the ACS Support function in Covington, Kentucky, and the Wage and Investment Division ACS
Support Function in Fresno, California, during the period September 2012 through March 2013.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                           Page 3
                                    Fiscal Year 2013 Statutory Review
                              of Compliance With Lien Due Process Procedures




                                      Results of Review

Most Lien Notices Were Mailed Timely
Tests of a statistically valid random sample of 133 NFTLs from the 728,439 NFTLs filed
between July 1, 2011, and June 30, 2012, showed that the IRS timely and correctly mailed the
taxpayers the notices of a lien filing and appeal rights as required by I.R.C. § 6320 for
****1******* of the 133 cases. *****************************1*******************.
Compliance with the law was verified with the proof of mailing, which is the certified mail
listing showing a U.S. Postal Service date stamp. The certified mail listing is produced by the
ALS with the taxpayer notice and stamped by the U.S. Postal Service with the date of mailing.
The certified mail listing is then forwarded to the Centralized Case Processing – Lien Unit for
record keeping.
*********************************1******************************************
*********************************1******************************************
**********************************1***************************************
**********************************1****************************************
**********************************1****************************************
**********************************1*****************************************
*********************1*****************.
IRS procedures provide that whenever an appeal request is received, the IRS must make a
determination if the request is timely. This is done by reviewing when the NFTL was filed and
the lien notice was issued. After we advised the IRS ********************1*************
***********************1******************************.

The Internal Revenue Service Did Not Comply With Procedures for
Notifying Taxpayer Representatives
Tests showed that the IRS did not appropriately send copies of the lien notices to the
representatives of five of 47 taxpayers in our sample who had representatives on file with the
IRS. Taxpayer representative information is contained on the Centralized Authorization File
(CAF)8 that is located on the Integrated Data Retrieval System (IDRS).9 Using the IDRS,

8
  The CAF contains information about the type of authorizations taxpayers have given their representatives for their
tax returns.
9
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 4
                                    Fiscal Year 2013 Statutory Review
                              of Compliance With Lien Due Process Procedures



employees can research the CAF to identify the types of authorizations given to taxpayer
representatives.
IRS procedures10 require that any notice or other written communication (or a copy thereof)
required or permitted to be given to a taxpayer in any matter before the IRS must be given to the
taxpayer and, unless restricted by the taxpayer, to the representative. Accordingly, IRS
procedures require the requestor of a NFTL to ensure that he or she notifies the Centralized Case
Processing – Lien Unit of all powers of attorney and co-obligors that are to be notified. More
specifically, when a NFTL is filed, IRS procedures require that a copy of the lien notice be sent
to the taxpayer’s representative as soon as possible after the lien notice is sent to the taxpayer.
Tests of a statistically valid sample of 133 NFTLs included 47 taxpayers with representatives
authorized to receive notifications at the time the NFTLs were filed. For five of the
47 taxpayers, ALS records did not indicate that the IRS sent copies of the lien notices to the
representatives. Specifically:
        *****************************1**********11 ***************************
         ******************************1*************************************
         ****************************1************************.
        *****************************1**************************************
         ******************************1*************************************.
        ******************************1**************************************
         *******************************1*************************************
         *************1***************.
        ******************************1************************************.
         *******************************1************************************
         ********************1******************.
We project12 that 27,389 taxpayers may have been adversely affected because the IRS did not
follow procedures to notify the taxpayers’ representatives of the taxpayers’ rights related to
NFTLs. We are 90 percent confident that the range of potential violations is between 10,854 and
63,447. In addition to this year’s results, Figure 3 shows the error rates reported on the
notification of taxpayer representatives in our last six reports.



10
   Conference and Practice Requirements, Statement of Procedural Rules, 26 C.F.R. § 601.506 (2002).
11
   Employees in the Collection Field function who attempt to contact taxpayers and resolve collection matters that
have not been resolved through notices sent by the IRS campuses or the ACS. Campuses are the data processing
arm of the IRS. The campuses process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
12
   Two-sided 90 percent confidence interval projection using the exact Binomial method.
                                                                                                            Page 5
                                   Fiscal Year 2013 Statutory Review
                             of Compliance With Lien Due Process Procedures



                              Figure 3: Error Rates Reported on the
                             Notification of Taxpayer Representatives
                                 Sampled Lien Cases         Sampled Lien Cases
                                     Requiring                Not Receiving
                Report             Representative             Representative
              Fiscal Year           Notification               Notification              Error Rate
                  2007                      25                         15                    60%
                  2008                      30                         12                    40%
                  2009                      27                          8                    30%
                  2010                      31                          8                    26%
                  2011                      30                          4                    13%
                  2012                      22                          4                    18%
                  2013                      47                          5                    11%
          Source: Prior and current year results of TIGTA’s tests on the notification of taxpayer
          representatives.

While the error rate has been reduced from 60 percent in our Fiscal Year 2007 report to
11 percent in our Fiscal Year 2013 report, the potential for violations still exists in cases
requiring taxpayer representative notification.
In our Fiscal Year 2009 report,13 we recommended that the IRS enhance its systems by
establishing a systemic upload of CAF data to the ALS in order to ensure that taxpayer
representatives timely receive copies of lien notices. In response, the IRS agreed to look at the
feasibility of developing a systemic process.
The IRS initiated development of an Integrated Automation Technology14 tool as a means of
communicating between the IDRS and ALS. During testing, the IRS concluded that the tool was
too slow for use in production and made suggestions for modifications to the tool. Accordingly,
the Director, Collection Policy, SB/SE Division, submitted a formal request in December 2011 to
have the modifications to the tool implemented. This request was not acted upon because
additional resources for programming were severely limited. While the IRS agrees that the
Integrated Automation Technology tool is the best corrective action, the recommendation was
closed as not feasible.




13
   TIGTA, Ref. No. 2009-30-089, Additional Actions Are Needed to Protect Taxpayers’ Rights During the Lien Due
Process (Jun. 2009).
14
   Tools that simplify research, reduce keystrokes, and increase the accuracy of regular work processes. Integrated
Automation Technology tools interact with the IDRS to automate casework.
                                                                                                           Page 6
                                   Fiscal Year 2013 Statutory Review
                             of Compliance With Lien Due Process Procedures



Recommendation
Recommendation 1: The Director, Enterprise Collection Strategy, SB/SE Division, should
revise the NFTL request form to include a checkbox indicating whether a valid power of attorney
is required to be sent a copy of the lien notice and establish procedures requiring the lien unit to
verify all lien requests in which the checkbox is blank.
         Management’s Response: IRS management agreed with the recommendation. IRS
         officials will revise Form 12636, Request for Filing or Refiling Notice of Federal Tax
         Lien. The IRS will also modify procedures for the Centralized Lien Operation’s
         processing of the form to include verification of missing power of attorney information.

Opportunities Exist to More Effectively Work Undelivered Lien Notices
Employees are not following procedures that could preclude the IRS from determining whether
undelivered lien notices are being researched timely. Additionally, employees are not updating
the undelivered status of lien notices as required. As a result, there is no record of the mail status
of these lien notices.
IRS procedures require that employees send taxpayers another lien notice to a new address if all
of the following factors are present:
        The originally mailed notice is returned as undelivered mail.
        Research confirms the original lien notice was not sent to the last known address.
        The new address was effective prior to or during the same cycle15 the NFTL was
         requested.
Collection function employees are responsible for certain actions when notices are returned as
undelivered. For example, ACS Support employees are required to research the IRS computer
system within 14 calendar days of receipt to ensure that the address on the original lien notice is
correct. If the employee cannot find a new address on the computer system, the undelivered lien
notice will be destroyed and a new notice is not issued.
If the address on the lien notice is not the last known address and a different address was in
effect prior to the NFTL being requested, employees should issue a new lien notice to the new
address. A new lien notice is created by using an option in the ALS.
A test of undelivered lien notices identified 35 (14 percent) of 248 lien notices in which the
address on the IRS computer system and the original lien notice did not agree. For all of the
35 lien notices, the address on the IRS computer system was updated appropriately after the

15
  Cycle refers to the IRS method of documenting dates (i.e., Processing Cycle 201102 is the second week of
January 2011).
                                                                                                             Page 7
                                  Fiscal Year 2013 Statutory Review
                            of Compliance With Lien Due Process Procedures



original lien notice was sent to the taxpayer. Therefore, no additional action was necessary.
Accordingly, no lien notices were required to be resent.

Employees are not always following internal procedures for undelivered lien
notices
A review of ACS and Accounts Management System (AMS)16 histories as of March 28, 2013,
showed that although 59 percent (146 of 248) of accounts were researched timely, 41 percent
(102 of 248) were not researched timely or were not researched at all. IRS procedures require
address verification and, if applicable, resolution of undelivered lien notices within 14 calendar
days of receipt in the ACS Support function. Figure 4 shows how the 248 returned lien notices
were handled by employees.
                         Figure 4: Timeliness of Employee Research
                                 of Undelivered Lien Notices




                   Source: TIGTA analysis of undelivered lien notices.




16
  The AMS is a computer-based system used to answer and resolve all taxpayer account-related inquiries. The
AMS provides a common interface that allows users of multiple IRS systems to view history and comments from
other systems.
                                                                                                      Page 8
                                 Fiscal Year 2013 Statutory Review
                           of Compliance With Lien Due Process Procedures



Figure 5 shows the improvement from prior years in which the majority of the sampled
undelivered lien notices was researched untimely.
            Figure 5: Error Rates Reported on Undelivered Lien Notices




         Source: Prior and current year results of TIGTA’s tests of undelivered lien notices. *The
         IRS changed the definition of timely from within seven calendar days to within 14 calendar
         days of receipt for undelivered lien notices reviewed beginning with our Fiscal Year 2012 report.

There are significant differences in how the Fresno and Cincinnati Campuses processed
undelivered lien notices
Fresno Campus: 14 (14 percent) of the 102 undelivered lien notices that were not researched
timely were from the Fresno Campus. Only eight of the 65 cases in which no research had been
performed were from the Fresno Campus. The ACS Support function received date was missing
from only five (8 percent) of the 65 cases with AMS documentation from the Fresno Campus.
The Fresno Campus has approximately 11 employees researching undelivered lien notices.
Cincinnati Campus: 88 (86 percent) of the 102 undelivered lien notices that were not
researched timely and 57 of the 65 cases in which no research had been performed after
148 calendar days were from the Cincinnati Campus. The Cincinnati Campus has only one
employee dedicated to researching undelivered lien notices.
Additionally, the Cincinnati Campus ACS Support function employees did not follow
appropriate documentation procedures. When providing documentation in the AMS or ACS,
employees are required to record the ACS Support function received date and the research
completion date and note whether the notice was reissued. However, only 57 (50 percent) of the
113 undelivered lien notices sampled from the Cincinnati Campus had documentation supporting
research of the undelivered lien notice. None of these 57 cases had the ACS Support function
received date documented.
In January 2012, IRS procedures were revised to require ACS Support function employees to
document the date undelivered lien notices are received in the ACS Support function and the

                                                                                                         Page 9
                               Fiscal Year 2013 Statutory Review
                         of Compliance With Lien Due Process Procedures



date research is completed. Documentation should be in the ACS narrative history (if the
taxpayer’s account is still open) or in the AMS (if the taxpayer’s account is closed).
Without knowing when the undelivered lien notices were received in the ACS Support function,
the researched date had to be compared with the sampled date to determine whether these cases
were researched timely. If no receipt date was available in the ACS Support function, the date
the undelivered notice was received in the IRS mail room was used as a basis for calculation of
timeliness. We allowed for three calendar days for the undelivered lien notices to be routed from
the campus mail room. Without the ACS Support function received date, the IRS may be unable
to determine whether undelivered lien notices are being researched timely.
The routing of undelivered lien notices may adversely impact timely research
IRS management indicated that the routing of undelivered lien notices could have contributed to
the untimely research. Specifically, all returned mail received at the Cincinnati and Fresno
Campuses is extracted and sorted by mail type in their respective mail rooms. The undelivered
lien notices are routed to the ACS Support functions that are located in different buildings. ACS
Support function employees then research IRS computer systems to identify the last known
addresses. We allowed three additional calendar days for the undelivered lien notices to be
routed from the campus mailroom to the ACS Support functions. We were advised that, in some
instances, it takes longer than three calendar days for the undelivered mail to be received in the
ACS Support functions.

Employees are still not following procedures designed to monitor undelivered
lien notices
Of the 248 sampled undelivered lien notices, 183 were researched (either timely or untimely) by
ACS Support function employees and documented in the AMS or ACS. None of the
183 undelivered lien notices researched had the transaction code and associated action code
appropriately input to the IDRS as required so that the IRS could track the status of the lien
notices and review the handling of undelivered lien notices. Procedures require that:
      The undeliverable notice to be returned directly to the requesting employee or function.
      Employees handling undelivered lien notices input a specific IDRS transaction code with
       an appropriate action code. The transaction code signifies that the lien notice was
       returned and the action code indicates the reason (i.e., undelivered, unclaimed, or
       refused).
On December 22, 2011, the Director, Collection Policy, SB/SE Division, issued interim guidance
that emphasized the requirement for Collection Field function employees to input this specific
IDRS transaction code with the appropriate action code to reflect the status of the returned lien
notice.


                                                                                           Page 10
                               Fiscal Year 2013 Statutory Review
                         of Compliance With Lien Due Process Procedures



In August 2009 the ALS was enhanced to perform a weekly systemic extract to send the
appropriate undeliverable status (transaction code and action code) of lien notices to the IDRS
using a specific command in the ALS. When this command is used to update the status of the
lien notice, no additional input is necessary to update the IDRS. When a lien notice is returned
undelivered and research has been completed regarding an updated address, the employee can
request the lien notice screen on the ALS be updated with the undelivered status or go to the lien
notice screen themselves and indicate the undelivered status.
However, for our sample of 248 undeliverable lien notices, the ALS was not updated with the
status of the undelivered lien notices and, therefore, the upload to the IDRS (via the ALS) did not
occur. As a result, there is no record of the status of these lien notices.
Management stated that the requirements to enter these codes do not apply to ACS Support
function employees. However, the ACS Support function has been designated by the SB/SE and
Wage and Investment Divisions to receive all undelivered lien notices that were filed by the ACS
since the address verification process was decentralized in August 2007. Accordingly, the IRS
procedures for Federal tax liens provide that the person designated the responsibility of
processing undelivered lien notices will also check the IDRS for a last known address and
request the input of the transaction code with the appropriate action code or the command code
enhancement via the ALS.
Because the ACS Support function was not following the IRS procedures for Federal tax liens, in
Fiscal Year 2011 we recommended that Collection and Campus Compliance Services,
SB/SE Division, and Compliance, Wage and Investment Division, ensure that the procedures
that address the handling of undelivered lien notices are consistent and include the same
requirements for timely research of undelivered notices and when a new notice should be sent.
Management agreed to reevaluate the procedures to ensure that they are consistent across the
functions and support the timely resolution of undelivered notices.
While some changes were made, the procedures pertaining to the campus were not changed to
include the requirement to input the specific transaction code and the applicable action code. In
our Fiscal Year 2012 statutory lien report, we recommended that the Directors, Enterprise
Collection Strategy and Campus Compliance Services, SB/SE Division, ensure that the use of
undelivered lien notice processing codes are consistent in the procedures for the ACS and the
Collection Field function. The IRS is still evaluating this recommendation with other options
and is scheduled to implement corrective action in June 2013. As a result, this procedure will be
evaluated during next year’s statutory review.
Compliance with these procedures is important because it allows management to review the
handling of undelivered lien notices. Undelivered lien notices are being sent back to more than
450 Collection Field function groups nationwide where the employees or functions that
requested the liens are located. Because the handling of undelivered lien notices is decentralized
and ACS employees fail to update taxpayers’ data in the IDRS, management does not have the

                                                                                           Page 11
                                   Fiscal Year 2013 Statutory Review
                             of Compliance With Lien Due Process Procedures



information needed to ensure and enforce the timely resolution of undelivered lien notices.
Figure 6 shows this situation has contributed to the number of undelivered lien notices that were
not researched timely over the past six years.
                                   Figure 6: Error Rates Reported
                                    on Undelivered Lien Notices
                                                             Undelivered Lien
                                                             Notices Sampled
                Report             Undelivered Lien         but Not Researched
              Fiscal Year          Notices Sampled                Timely                Error Rate*
                  2008                    400                         133                   33%
                  2009                    283                         234                   83%
                  2010                    300                         252                   84%
                  2011                    250                         204                   82%
                  2012                    250                         194                   78%
                  2013                    248                         102                   41%
          Source: Prior and current year results of TIGTA’s tests of undelivered lien notices. *The
          IRS changed the definition of timely from within seven calendar days to within 14 calendar
          days of receipt for undelivered liens reviewed beginning with our Fiscal Year 2012 report.

The cases sampled for our Fiscal Year 2009 report were selected after decentralization, when the
error rate increased from 33 percent to 83 percent. It has remained near 80 percent since that
time, with the exception of this year. Further, because employees are not following the
procedures to enter the undelivered notice status into the IDRS via transaction and action codes,
the information about the undelivered notice is limited to only those employees working the
undelivered mail. IRS management, as well as Accounts Management organization17 employees
and Centralized Case Processing – Lien Unit employees, who have access to the ALS, do not
have access to information on undelivered lien notices. As a result, Taxpayer Assistance
Center18 employees would be unable to answer taxpayer questions about these NFTLs.

Recommendation
Recommendation 2: The Directors, Collection and Campus Compliance Services,
SB/SE Division, and the Director, Compliance, Wage and Investment Division, should establish



17
   The Accounts Management organization is responsible for providing taxpayers with information on the status of
their returns and refunds and for resolving the majority of issues and questions to settle their accounts.
18
   A Taxpayer Assistance Center is an IRS office with employees who answer questions, provide assistance, and
resolve account-related issues for taxpayers face to face.
                                                                                                        Page 12
                               Fiscal Year 2013 Statutory Review
                         of Compliance With Lien Due Process Procedures



controls to ensure that the ACS Support function received date for undelivered lien notices is
properly documented and that undelivered lien notices are researched timely.
       Management’s Response: IRS management agreed with the recommendation. The
       IRS will issue a Service-wide Electronic Research Program Alert and update the Internal
       Revenue Manual to reflect that the ACS Support function received date be documented
       on either the ACS or AMS dependent on where the case resides. The ACS Support
       function will also begin using the Integrated Data Retrieval System feature for systemic
       generation of the Transaction Code 971 action code on undelivered liens.




                                                                                          Page 13
                               Fiscal Year 2013 Statutory Review
                         of Compliance With Lien Due Process Procedures



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether liens issued by the IRS comply with legal
guidelines set forth in the I.R.C. § 6320 (a) and related guidance in the Federal Tax Liens
Handbook. We conducted the following tests to accomplish this objective:
I.     Determined whether liens issued by the IRS complied with legal requirements set forth in
       I.R.C. § 6320 (a) and related internal guidelines.
       A. Selected a statistically valid sample of 133 NFTLs for review from an ALS extract of
          all NFTLs filed by the IRS nationwide between July 1, 2011, and June 30, 2012.
           Population:                         728,439
           Confidence Level:                   90 percent
           Expected Rate of Occurrence:        2 percent
           Precision Rate:                     ± 2 percent
       B. Validated the ALS extract by comparing a sample of records to online data.
       C. Determined whether the sampled NFTLs adhered to legal guidelines regarding timely
          notifications of lien filings to the taxpayer, the taxpayer’s spouse, or business partners
          by reviewing data from the ALS, ICS, ACS, IDRS, and the certified mail listings.
       D. Evaluated the impact of any revised legal guidelines regarding timely notification to
          the original legal guidelines.
       E. Evaluated the controls and procedures established for transferring, storing, and
          safeguarding certified mail listings at the Centralized Case Processing - Lien Unit for
          record keeping.
       F. Determined if taxpayers’ representatives were provided a copy of the lien due process
          notice by reviewing data from the ALS, IDRS, ICS and ACS.
           1. Reviewed IDRS screens for CAF indicators (transaction code 960) for all sample
              cases.
           2. Reviewed ALS history screens for accounts with CAF indicators to see whether
              notices were mailed to taxpayers’ representatives.
           3. For the sampled liens without taxpayer’s representative/power of attorney and
              co-obligors notifications on the ALS histories, we reviewed the ACS and the ICS
              for taxpayer representative indicators and determined whether taxpayer
              representatives/power of attorneys should have been notified.
                                                                                            Page 14
                                      Fiscal Year 2013 Statutory Review
                                of Compliance With Lien Due Process Procedures



           G. Consulted with TIGTA Counsel prior to reporting any potential legal violations to
              IRS management.
II.        Evaluated the procedures for processing lien notices (Letters 3172)1 that are returned
           undelivered.
           A. Selected a judgmental2 sample in October 2012 of 248 unprocessed (unopened) and
              recently processed (opened) mail containing undelivered lien notices from the Fresno
              (135) and Cincinnati (113) Campuses and recorded the taxpayer’s name, address,
              Social Security Number, and Serial Lien Identification number. We used a
              judgmental sample because we could not determine the population of undelivered lien
              notices at those two campuses.
           B. For each sample case, researched the IDRS Master File to determine whether the
              address on the Master File matched the address on the undelivered lien notice.
           C. For each sample case, reviewed taxpayer audit trails and ACS and AMS histories to
              determine whether lien employees performed the required IDRS research during
              creation of the lien.
           D. For each sample case, reviewed taxpayer audit trails and ACS and AMS histories to
              determine whether lien employees performed the required IDRS research for
              resolution of undeliverable status within 14 calendar days of receipt.
III.       Determined whether internal guidelines have been implemented or modified since our
           last review by discussing procedures and controls with appropriate IRS personnel in the
           National Headquarters.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SB/SE Division Collection function’s
policies, procedures, and practices for timely notifying taxpayers of lien filings and timely
verifying addresses of undelivered lien notices. We evaluated these controls by interviewing
management and reviewing samples of lien notices sent to taxpayers and lien notices returned to
the IRS as undelivered.




1
    Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Mar. 2009).
2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 15
                             Fiscal Year 2013 Statutory Review
                       of Compliance With Lien Due Process Procedures



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Tim Greiner, Audit Manager
Beverly Tamanaha, Acting Audit Manager
Bridgid Shannon, Lead Auditor
Michael Garcia, Senior Auditor
Steven Stephens, Senior Auditor
Mark Willoughby, Senior Auditor
Nicole DeBernardi, Auditor
Stephen Elix, Auditor




                                                                                    Page 16
                            Fiscal Year 2013 Statutory Review
                      of Compliance With Lien Due Process Procedures



                                                                         Appendix III

                        Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 17
                                     Fiscal Year 2013 Statutory Review
                               of Compliance With Lien Due Process Procedures



                                                                                                Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
          Taxpayer Burden – Potential; 27,389 taxpayers whose representatives may not have been
           provided Letters 3172, Notice of Federal Tax Lien Filing and Your Right to a Hearing
           Under IRC 63201 (see page 4).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 133 NFTL cases, we identified 47 cases with representatives
authorized to receive notifications at the time the liens were filed. From those 47 cases, we
identified five cases for which IRS employees did not provide notice to taxpayer representatives,
resulting in potential taxpayer burden. We are 90 percent confident that the range of potential
violations is between 10,854 and 63,447. The sample was selected based on a confidence level
of 90 percent, a precision rate of ±2 percent, and an expected rate of occurrence of 2 percent.
We projected the findings to the total population provided by the IRS of 728,439 NFTLs
generated by the ALS between July 1, 2011, and June 30, 2012.
          Error rate = five (3.76 percent) out of 133 cases in which the taxpayer representative was
           not provided Letter 3172.
          Population = 728,439 NFTLs generated by the ALS between July 1, 2011, and
           June 30, 2012.
          Projection = 728,439 X 3.76 percent = 27,389 taxpayers whose representatives may not
           have been provided Letters 3172.




1
    Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Mar. 2009).
                                                                                                     Page 18
                                   Fiscal Year 2013 Statutory Review
                             of Compliance With Lien Due Process Procedures



                                                                                                 Appendix V

           Synopsis of the Internal Revenue Service
        Collection and Notice of Federal Tax Lien Filing
                          Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
of the debt and asking for payment of the delinquent tax. IRS computer systems are
programmed to mail these notices when certain criteria are met. If the taxpayer does not respond
to these notices, the account is transferred for either personal or telephone contact.
        IRS employees who make personal (face-to-face) contact with taxpayers are called
         revenue officers and work in various locations. The ICS1 is used in most of these
         locations to track collection actions taken on taxpayer accounts.
        IRS employees who make only telephone contact with taxpayers work in call sites. The
         ACS is used in the call sites to track collection actions taken on taxpayer accounts.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a lien by sending a NFTL2 to appropriate local government
offices. NFTLs protect the Federal Government’s interest by attaching a claim to the taxpayer’s
assets for the amount of unpaid tax. The right to file a lien is created by I.R.C. Section 6321
when:
        The IRS has made an assessment and given the taxpayer notice of the assessment, stating
         the amount of the tax liability and demanding payment.
        The taxpayer has neglected or refused to pay the amount after the notice and demand for
         payment.
When designated employees request the filing of a NFTL using either the ICS or the ACS, the
ALS processes the NFTL filing requests from both systems. In an expedited situation,
employees can manually prepare the NFTL. Even for manually prepared NFTLs, the ALS
controls and tracks the NFTLs and initiates subsequent lien notices3 to notify responsible parties
of the NFTL filings and of their appeal rights. The ALS maintains an electronic database of all


1
  See Appendix VI for detailed descriptions of the IRS computer systems used in the filing of Notices of Federal Tax
Lien.
2
  IRS Form 668(Y)(c), Notice of Federal Tax Lien (Oct. 1999).
3
  IRS Letter 3172, Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Mar. 2009).
                                                                                                          Page 19
                               Fiscal Year 2013 Statutory Review
                         of Compliance With Lien Due Process Procedures



open NFTLs and updates the IRS’s primary computer records to indicate that a NFTL has been
filed.
Most lien notices are mailed to taxpayers by certified or registered mail, rather than delivered in
person. To maintain a record of the notices, the IRS prepares a certified mail listing (U.S. Postal
Service Form 3877), which identifies each notice that is to be mailed. The lien notices and a
copy of the certified mail listing are delivered to the U.S. Postal Service. A U.S. Postal Service
employee ensures that all notices are accounted for, date stamps the list, and returns a copy to the
IRS. The stamped certified mail listing is the only documentation the IRS has that certifies the
date on which the notices were mailed. IRS guidelines require that the stamped certified mail
listing be retained for 10 years after the end of the processing year.




                                                                                            Page 20
                                   Fiscal Year 2013 Statutory Review
                             of Compliance With Lien Due Process Procedures



                                                                                              Appendix VI

Internal Revenue Service Computer Systems Used in
      the Filing of Notices of Federal Tax Liens

Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance-due accounts and return delinquency investigations. ACS function employees
enter all of their case file information (online) on the ACS. The NFTLs requested using the ACS
are uploaded to the ALS, which generates the NFTL1 and related lien notices and updates the
IRS’s primary computer files to indicate that the NFTLs have been filed.
Automated Lien System (ALS) is a comprehensive database that prints the NFTLs and
lien notices, stores taxpayer information, and documents all lien activity. Lien activities on
both ACS and ICS cases are controlled on the ALS by Case Processing functions at the
Cincinnati, Ohio, Campus.2 Employees at the Cincinnati Campus process the NFTLs and
respond to taxpayer inquiries using the ALS.
Integrated Collection System (ICS) is an IRS computer system with applications designed
around each of the main collection tasks such as opening a case, assigning a case, building a
case, performing collection activity, and closing a case. The ICS is designed to provide
management information, create and maintain case histories, generate documents, and allow
online approval of case actions. Lien requests made using the ICS are uploaded to the ALS. The
ALS generates the NFTL and related lien notices and updates the IRS’s primary computer files
to indicate the NFTLs have been filed.
Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system that
processes transactions entered from terminals located in campuses and other IRS locations. It
enables employees to perform such tasks as researching account information, requesting tax
returns, entering collection information, and generating collection documents. The IDRS serves
as a link from campuses and other IRS locations to the Master File3 for the IRS to maintain
accurate records of activity on taxpayers’ accounts.




1
  IRS Form 668(Y)(c), Notice of Federal Tax Lien, (Oct. 1999).
2
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                        Page 21
                             Fiscal Year 2013 Statutory Review
                       of Compliance With Lien Due Process Procedures



                                                                           Appendix VII

              Statutory Lien Reports Issued During
                Fiscal Years 2007 Through 2012

TIGTA, Ref. No. 2007-30-051, Fiscal Year 2007 Statutory Review of Compliance With Lien Due
Process Procedures (Mar. 2007).
TIGTA, Ref. No. 2008-30-082, Fiscal Year 2008 Statutory Review of Compliance With Lien Due
Process Procedures (Mar. 2008).
TIGTA, Ref. No. 2009-30-089, Additional Actions Are Needed to Protect Taxpayers’ Rights
During the Lien Due Process (Jun. 2009).
TIGTA, Ref. No. 2010-30-072, Actions Are Needed to Protect Taxpayers’ Rights During the
Lien Due Process (Jul. 2010).
TIGTA, Ref. No. 2011-30-051, Challenges Remain When Processing Undeliverable Mail and
Preventing Violations of Taxpayers’ Rights During the Lien Due Process (May 2011).
TIGTA Ref. No. 2012-30-057, Problems Persist When Processing Undelivered Lien Notices and
Notifying Taxpayers’ Representatives (May 2012).
 




                                                                                    Page 22
              Fiscal Year 2013 Statutory Review
        of Compliance With Lien Due Process Procedures



                                                Appendix VIII

Management’s Response to the Draft Report




                                                         Page 23
      Fiscal Year 2013 Statutory Review
of Compliance With Lien Due Process Procedures




                                                 Page 24
      Fiscal Year 2013 Statutory Review
of Compliance With Lien Due Process Procedures




                                                 Page 25
